<html>
<title> - COUNTERING EXTREMISM AND THE THREAT OF ISIS IN SOUTHEAST ASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


      COUNTERING EXTREMISM AND THE THREAT OF ISIS IN SOUTHEAST ASIA

=======================================================================


                                HEARING

                              BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

                           Serial No. 114-160

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
99-757PDF                       WASHINGTON : 2016                         
                               
 _________________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  

 
 
 
 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. W. Patrick Murphy, Deputy Assistant Secretary, Bureau of East 
  Asia and the Pacific, U.S. Department of State.................     4
Marie Richards, Ph.D., Deputy Counterterrorism Coordinator for 
  Regional and Multilateral Affairs, Bureau of Counterterrorism, 
  U.S. Department of State.......................................     5
Ms. Gloria Steele, Senior Deputy Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. W. Patrick Murphy and Marie Richards, Ph.D.: Prepared 
  statement......................................................     8
Ms. Gloria Steele: Prepared statement............................    18

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
Written responses to questions submitted for the record by 
  members of the subcommittee....................................    34

 
     COUNTERING EXTREMISM AND THE THREAT OF ISIS IN SOUTHEAST ASIA

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. This subcommittee will come to order. Members 
present will be permitted to submit written statements to be 
included in the official hearing record. Without objection, the 
hearing record will remain open for 5 calendar days to allow 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    In recent months, violent attacks in Europe and expanding 
jihadist networks in Northern Africa have provided tragic and 
senseless reminders of the threat that terrorism and extremism 
pose to the world. As we discuss the global fight against the 
threat of terrorism, we don't first think of Southeast Asia. 
But this vibrant region, home to nearly 40 percent of the 
world's Muslim population, is also a crucial part of the global 
war on terror. Southeast Asia captures less U.S. media 
attention than other headline-grabbing flash points, but the 
region's efforts to combat extremism are vital to maintaining 
stability in some of the world's most successful Muslim 
majority states and ultimately to protecting the security of 
our homeland.
    Today, we will discuss Southeast Asia's efforts to counter 
the threat of violent extremism, many of them successful, as 
well as possible opportunities for improvement. In this 
hearing, we will focus on the Philippines, Indonesia, and 
Malaysia, but Southeast Asia as a whole is at particular risk 
for extremist activity.
    This area is home to a large Muslim population, very porous 
borders, and persistent governance challenges and development 
needs. Militant Islamic separatists and terrorists have 
operated in the region for decades, but the fight against such 
groups has yielded some successes for the United States and our 
partners.
    The Southern Philippine Islands have long been home to 
active Islamist separatist and terrorist organizations. 
President Bush included the Philippines as part of the front 
lines of the global war on terror following 9/11 and launched 
an effort that helped the Filipinos significantly degrade these 
groups. These are due, in large part, to joint counterterror 
operations between Philippine and U.S. Armed Forces as well as 
close integration between our counterterrorism and development 
assistance.
    The Aquino administration has also made significant 
progress toward settling Islamic separatist violence in 
Mindanao with the signing of the comprehensive agreement on the 
Bangsamoro despite the Philippine Congress' slow progress 
toward implementing the terms of the agreement.
    Although the Philippines has enjoyed some success, it 
continues to feel the pain of extremist activities. Eighteen 
Filipino soldiers were killed earlier this week in a clash with 
the Abu Sayyaf Group.
    Islamist militancy has similarly been a decades-long 
challenge for Indonesia. Indonesia has seen more than its share 
of domestic terrorist attacks, including the horrific Bali 
bombings in 2002 and several other attacks in the following 
years. In response, the Government of Indonesia has built up 
formidable counterterror capabilities in its military and its 
police force thanks, in part, to the considerable U.S. capacity 
building. It has taken great strides in countering military 
recruitment by marginalizing those who advocate violence and 
convincing the vast majority of Indonesians that such acts run 
counter to the teachings of Islam.
    However, the Muslim majority nation of 253 million people 
continues to suffer tragic terrorist attacks, most recently the 
bomb and gunfire attack in Jakarta in January of this year. 
Observers credit the Indonesian Government, including the gift 
leadership of President Jokowi for the comparatively minor 
damage that the attack caused.
    While Malaysia doesn't have a history of indigenous 
separatists or insurgencies carrying out terrorist attacks, its 
government has recognized the rising threat posed by global 
Islamic radicalism and has taken significant measures to 
counteract this threat. Malaysia continues to promote the 
moderate practice of Islam and has shifted resources to 
preventing militancy from taking root in its outlying 
provinces. Malaysia also continues to step up its 
counterterrorism cooperation multilaterally and bilaterally 
including support from ASEAN and participation in the Global 
Coalition to Counter ISIL.
    We have got to ensure that the positive momentum in the 
fight against extremism in Southeast Asia is not lost. 
Unfortunately, these successes have been put at risk by changes 
in the landscape of extremism. Most concerning is the influence 
of Islamic State, its malicious and viral technology and the 
internationalization of violence that it promotes. Hundreds of 
Southeast Asians have joined the Islamic State's ranks in Syria 
and Iraq to forge new transnational links between the Islamic 
State and indigenous Southeast Asian extremists. The Islamic 
State has reached out to Southeast Asians through social media 
encouraging acts of violence. There is no formal Islamic State 
affiliate in Southeast Asia today, but there is a threat. The 
linkage of the Islamic State could empower militants and 
rekindle a broader terrorist threat in the region.
    As global terror and extremism evolves, our strategy must 
do the same. Today, we are going to discuss how these new 
challenges will affect counterterror and counter violent 
extremism in the region.
    I was just recently in Indonesia within the last couple of 
weeks and I met with the newly-appointed Minister of 
Counterterrorism, an upgrade, I guess, from being the Chief of 
Police. And I can tell you that this is front and center on 
their minds and they are very, very concerned about potential 
calamities in addition to the ones they have already had. But I 
was able to go to one of the madrasas and meet with some of the 
student leaders and I was really impressed with the caliber of 
these young people that I met and the fact that they stand with 
us against extreme factions with Islam.
    I look forward to hearing from our distinguished panel to 
develop a better understanding of the administration's strategy 
for this crucial aspect of U.S. foreign policy and to identify 
further concerns that may need attention from the committee. 
And I would like to recognize the ranking member today, Ms. 
Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman. I 
appreciate you and Ranking Member Sherman for putting together 
this important hearing today and for our panelists for coming 
to share their insights and their thoughts.
    While the world focuses on Islamic extremist threats that 
are facing countries in the Middle East and North Africa, it is 
critical that we not ignore this growing threat that we are 
seeing in other countries, in particular, in Southeast Asia 
which speaks to why this hearing is important.
    The chairman talked about Indonesia where we saw an ISIS-
linked attack in the capital of Jakarta with eight people being 
killed last January. Other countries in the region, also being 
very densely populated, where the concern is that continued 
attacks could lead to extensive casualties as well as great 
damage to those communities.
    I look forward to hearing from our witnesses about what the 
U.S. is doing to help stop the spread of extremism in these 
countries. While it is not directly within this region, I do 
also want to mention Bangladesh, a country that continues to 
face growing violent jihadist problem. Last week, Nazimuddin 
Samad, a secular activist, was hacked to death in Dhaka 
following a horrific pattern that we have seen there now for 
the last year.
    A few months ago, I introduced a resolution calling on the 
Government of Bangladesh to protect the rights of all of its 
religious minorities including Christians, Hindus, atheists, 
and others from these kinds of attacks. We must take action in 
these countries while there still is a chance to prevent groups 
like ISIS and their extremist ideology from growing.
    Thank you very much again for being here. I look forward to 
hearing from you. I yield back.
    Mr. Salmon. Thank you. We are joined today by Mr. W. 
Patrick Murphy, Deputy Assistant Secretary of State for 
Southeast Asia in the Department of State's Bureau of East Asia 
and the Pacific; Dr. Marie Richards, Deputy Counterterrorism 
Coordinator for Regional and Multilateral Affairs in the 
Department's Bureau of Counterterrorism; and Ms. Gloria Steele, 
Senior Deputy Assistant Administrator in the U.S. Agency for 
International Development's Bureau for Asia.
    And we are really grateful to have all of these witnesses 
today, and we look forward to learning more about what is going 
on within the administration to deal with these issues and we 
will first turn to Mr. Murphy.

STATEMENT OF MR. W. PATRICK MURPHY, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIA AND THE PACIFIC, U.S. DEPARTMENT OF STATE

    Mr. Murphy. Chairman Salmon, Ranking Member Gabbard, 
distinguished members of the subcommittee, thank you very much 
for the opportunity to testify today on the very important and 
timely issue of countering violent extremism in Southeast Asia.
    I also thank the committee for its sustained support of our 
broad engagement across the East Asia-Pacific region 
exemplified by the chairman's recent travel. Thank you very 
much for visiting us.
    The United States and our partners across Southeast Asia 
work together to address challenges that transcend borders, 
including infectious disease, trafficking in persons, wildlife, 
illicit narcotics, organized crime, and of course, terrorism.
    As President Obama told his ASEAN counterparts at the 
Sunnylands Summit just this February, our global 
counterterrorism strategy is informed in no small part by the 
successes over many years of Southeast Asian nations in 
disrupting terrorist plots, arresting sympathizers of terrorist 
organizations, and establishing mechanisms to counter extremist 
narratives.
    The January attack in Jakarta referred to by the chairman 
and the ranking member and other recent attacks around the 
world, however, demonstrate that terrorist organizations, 
including ISIL, can support and inspire violence almost 
anywhere. That is why we are building partnerships with the 
countries in Southeast Asia facing the most active terrorist 
threats including Indonesia, Malaysia, the Philippines and 
others as well as regional organizations like ASEAN.
    Indonesia, the world's most populous Muslim majority 
democracy, has seen success using a rule of law based approach 
to counterterrorism. Government and civil society leaders have 
forcibly denounced ISIL. Still, according to Indonesian 
officials, there are about 300 Indonesians actively fighting in 
Iraq and in Syria. While this is a small fraction of 
Indonesia's 250 million plus population, the existence of such 
fighters and the January 14th attack in Jakarta underscore 
ISIL's ability to attract recruits and inspire violence in that 
country. In response, the Indonesian Government recently 
introduced legislation that would give it better tools to 
counterterrorism.
    Indonesia is an active member of the Global 
Counterterrorism Forum. The country's active civil society 
promotes the local practice of Islam as a positive and tolerant 
alternative to violent extremist ideologies.
    To support these efforts, we are working with Indonesia 
across a range of activities including training law enforcement 
and judicial sector officials, sharing information to prevent 
terrorist travel, providing technical advice on prisoner 
management, and supporting local counter-messaging efforts.
    In Malaysia, we are also concerned about ISIL's influence, 
particularly through online messaging. Since 2013, Malaysian 
authorities have arrested over 175 terrorist suspects, 
primarily ISIL supporters under the country's national security 
legislation. Malaysia joined the Global Coalition to Counter 
ISIL last September and announced that it will establish a 
regional center to counter ISIL messaging. We support these 
efforts and we look forward to attending the Center's opening 
in the coming months.
    We have also strengthened technical assistance since 
Malaysian Deputy Prime Minister Zahid and Secretary of State 
John Kerry signed a terrorist watch list sharing arrangement 
this past October.
    In the Philippines, terrorist and criminal elements such as 
the Abu Sayyaf group, exploit the security environment in the 
Southern Mindanao region. Although some terrorist groups have 
pledged allegiance to ISIL, most are focused on criminality and 
lack strong ideological motivations. We provide, train, and 
equip programs to support law enforcement and military forces 
in the Southern Philippines which have strengthened local 
capabilities. We are also watching the stalled Mindanao peace 
process which will be important for achieving a sustainable 
political solution and improving the security environment for 
local populations.
    Finally, I highlight the excellent work that ASEAN has done 
to strengthen collaboration in meeting these challenges, 
including its leading role in achieving East Asia Summit 
statements on ISIL in 2014 and on countering violent extremism 
in 2015. We are committed to working into the future with ASEAN 
on information sharing, border security and law enforcement 
cooperation.
    Mr. Chairman, these partnerships demonstrate the strong and 
growing commitment in Southeast Asia to push back against 
ISIL's hateful ideology in all forms of violent extremism. With 
continued U.S. engagement, backed by congressional support, we 
are confident the countries in the region will maintain a 
commitment to tackling terrorism and extremism.
    Thank you, and I will be happy to answer your questions.
    Mr. Salmon. Thank you. Dr. Richards.

  STATEMENT OF MARIE RICHARDS, PH.D., DEPUTY COUNTERTERRORISM 
 COORDINATOR FOR REGIONAL AND MULTILATERAL AFFAIRS, BUREAU OF 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ms. Richards. Chairman Salmon, Ranking Member Gabbard, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear here today.
    As you know, in the world today, we face an increasingly 
dynamic, diffused, and geographically decentralized set of 
terrorist threats. While the United States and our partners 
have made significant progress in reducing and denying 
terrorist safe havens, terrorist groups are still able to 
exploit local conditions and 21st century technology to 
attract, recruit, and conduct attacks. This is also true for 
Southeast Asia.
    Globally, since 2012, we estimate that at least 36,000 
foreign terrorist fighters from more than 120 countries have 
traveled to Syria and Iraq, including countries in Southeast 
Asia, particularly Indonesia and Malaysia. Some of these 
fighters have returned home, some are arrested, but as the 
trends continue, they are a danger to their own countries. It 
is clear that ISIL is inspiring terrorist activity in Southeast 
Asia. As the ranking member has mentioned, ISIL claimed 
responsibility via its English language online magazine Dabiq 
for the tragic attack in Jakarta this past January which was 
carried out by local pro-ISIS supporters.
    And as the chairman has noted, our Southeast Asia partners 
take this threat very seriously. The law enforcement agencies 
have performed remarkably well in their efforts to arrest and 
disrupt terrorist activity. As the chairman said, the Jakarta 
attack could have been much deadlier if not for the 
effectiveness of Indonesian authorities.
    That said, as President Obama has noted, we must develop 
more effective partnerships and tools to holistically address 
the evolving terrorist threat environment. We use the framework 
established by the U.N. Security Council Resolution 2174 which 
was passed in the U.N. General Assembly in 2014, sponsored by 
the United States. We use this as a framework for working with 
our partners including in Southeast Asia to put in place the 
fundamental reforms that will stem the flow of foreign fighters 
and counter violent extremism over the longer term. These 
points include: Increasing information sharing among countries; 
strengthening aviation and border security; implementing or 
enhancing counterterrorism legislation and supporting 
prosecutions and investigations; and increasing efforts to 
counter violent extremism particularly through strengthening 
community partnerships.
    I will give you a few examples of how we are implementing 
this approach. To counter the flow of foreign terrorist 
fighters to conflict zones and returning from them, we are 
helping our partners strengthen their connectivity with 
Interpol. Malaysia just very recently began systematically 
reporting to Interpol lost and stolen travel document data. And 
they recently submitted 12,000 names for lost and stolen 
passports.
    We are working with our Southeast Asia partners to build 
justice sector capacity. So as you know, Chairman, from your 
recent visit, Indonesia's improved capacity led to the 
conviction of Jemaah Islamiah, founder of Abu Bakar Bashir as 
well as the Bali bomb maker, Umar Patek, and they are both now 
in prison.
    In the Philippines, the State Department is supporting the 
FBI which is assisting the Philippine Government in building 
terrorist financed investigations capacity. And we have had 
some success there as well. But even as we work to enhance 
security capacity, we must also work to prevent support for 
countering violent extremism and recruitment to violence.
    So throughout Southeast Asia, we are focused on building 
the capacity of locally based, civil society actors in order to 
counteract terrorist recruitment. We are particularly looking 
at radicalization to violence in prisons and we are just at the 
beginning of this process, but we believe it is important 
because many people are radicalized in prison, so we are 
beginning to implement coming up with some pilot projects to 
identify terrorist prisoners, to track them through and to 
figure out how to remove the threat. Also, when they are 
brought back into the community, how do we handle that.
    I will also say in closing that overall, we strongly 
believe that a whole of government, integrated, and coordinated 
approach is the only way to effectively address these threats 
over the longer term and our partnerships in Southeast Asia are 
vitally important as you have mentioned to our collective 
effort to counterterrorism globally as well as in the region.
    I look forward to discussing these important issues with 
you today and thank you for holding this hearing.
    [The prepared statement of Mr. Murphy and Ms. Richards 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Salmon. Thanks, Dr. Richards. Ms. Steele.

    STATEMENT OF MS. GLORIA STEELE, SENIOR DEPUTY ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Steele. Chairman Salmon, Ranking Member Gabbard, 
distinguished members of the subcommittee, thank you very much 
for the opportunity to testify on USAID's role in addressing 
the drivers of violent extremism in Southeast Asia.
    Around the world, violent conflict, fragility and violent 
extremism pose significant threats to regional and global 
security. The costs of conflict in a developmental, economic 
and human sense are extraordinary. By neglecting the factors 
that drive conflict, we ignore the plight of 1\1/2\ billion 
people living in conflict and fragility around the world.
    Knowing that violent extremists can exploit conditions of 
conflict and fragility, the United States Government has 
integrated the prevention and mitigation of conflict and the 
promotion of resilient, democratic societies as a key part of 
its defense, diplomacy and development efforts. Through this 
approach, and in coordination with our host countries and other 
donors, we help ensure progress in a broad range of priorities, 
including eradicating extreme poverty, while advancing the 
U.S.'s own security and prosperity.
    At USAID, we focus on addressing the underlying socio-
economic drivers of violent conflict, fragility, and violent 
extremism. Our multi-faceted approach considers host country 
commitment and capacity, builds local systems and local 
capacity to address the causes of violent extremism and 
conflict and includes women as partners in preventing conflict 
and building peace. Through analysis and monitoring, we ensure 
that our programs are effectively addressing the drivers of 
conflict in each unique country setting.
    In the Asia-Pacific, we continue to see rapid economic 
growth lifting millions of people out of poverty. At the same 
time, growing inequality, weak governance--including 
corruption, social marginalization and violations of human 
rights are resulting in unequal access to justice and social 
services, particularly for members of marginalized populations. 
All of these issues can be drivers of instability and 
contribute to radicalization to violence.
    USAID's work to advance democracy and promote human rights 
and good governance, helps to address these destabilizing 
factors. We encourage governments to provide all of their 
citizens with the space to engage in political processes, and 
we support civil society in voicing citizens' concerns. We work 
to strengthen the rule of law and government accountability in 
order to reduce corruption and impunity. We also build capacity 
for local governments to deliver health and education services. 
The lack of such services can create opportunities for service 
provision by extremist groups.
    We also know that violent extremism respects no boundaries 
nor is it limited to any specific ideology. In countries like 
Burma and Sri Lanka, Muslims are also victims of violent 
extremism. In both countries, we are promoting tolerance and 
countering violence against minority, ethnic, and religious 
groups by encouraging the development of a balanced media and 
building civil society support for tolerant and inclusive 
speech.
    Next, I will provide overviews of the three Southeast Asian 
countries where USAID is addressing drivers of conflict and 
violent extremism.
    In Indonesia, impressive democratic and economic progress 
remains challenged by fragile institutions, corruption, and--as 
we saw with Jakarta's January terrorist attack--the threat of 
terrorism. Informed by our assessment of the drivers of violent 
extremism, USAID is providing access to justice and social 
services for the poor and most vulnerable, helping combat 
corruption and developing the capacity of civil society and the 
government to address the grievances of members of marginalized 
populations. We are, in addition, fostering pluralism and 
tolerance in Indonesia.
    In the Philippines, despite significant economic and 
development gains, a resilient democracy and a strong civil 
society, the country continues to grapple with recurring 
insurgencies, politically motivated violence and some remaining 
terrorist organizations. Weak governance, including corruption, 
and high levels of marginalization and fragmentation have made 
the Autonomous Region of Muslim Mindanao particularly 
vulnerable.
    In line with recent assessments, USAID focuses on improving 
local governments' ability to deliver social services in order 
to improve their legitimacy. We also focus on fostering greater 
transparency and accountability in government operations, and 
on fostering stronger civic engagement among local communities. 
We are helping 20,000 out-of-school youth to engage 
productively in civic and economic activities.
    And finally, in southern Thailand, home to one of the most 
violent conflicts in the Asia-Pacific region, USAID is working 
to increase trust and common understanding among conflicting 
communities and in fostering religious tolerance.
    Mr. Chairman, by addressing these destabilizing factors, 
our development assistance is helping to lay the foundation for 
security and peace for all populations in the Asia-Pacific and 
also the United States.
    I appreciate the opportunity to testify today and look 
forward to your counsel and your questions. Thank you very 
much.
    [The prepared statement of Ms. Steele follows:]
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
                              ----------                              

    Mr. Salmon. Thank you very much. We will begin with some 
questions. Southeast Asian nations have very porous borders, 
making it difficult to track terrorists and challenging to 
prevent the movement of terror groups. What capabilities do the 
governments in Southeast Asian countries have to track foreign 
terrorists who are entering their borders, domestic terrorists 
moving within a country, and domestic terrorists going abroad 
for training? What is the current level of information also 
that is being shared between the United States and Southeast 
Asia nations?
    Can I start with you, Mr. Murphy?
    Mr. Murphy. Thank you, Mr. Chairman. It is a great 
question. As you experienced in Indonesia, this is an 
archipelago. The same could be said for the Philippines, and 
parts of Malaysia. Borders throughout the region are described 
as porous, lacking in the infrastructure. So the key task from 
our perspective is information sharing, both with established 
international organizations among ASEAN members and across 
borders.
    And as we heard earlier, the President announced an 
initiative on our part in February to increase information 
sharing through a $2-million program working with Interpol. And 
we are already seeing results, particularly in Malaysia. I 
can't underestimate the success of a program that automatically 
updates data on a daily basis to capture those last passports 
and identification materials.
    We are also collaborating on a bilateral basis with these 
countries to improve information sharing and through our 
training programs, whether it is through my colleague's Bureau 
of Counterterrorism, through our anti-terrorism assistance 
programs, how can we improve local law enforcement 
capabilities, border controls, immigration standards, etcetera. 
And we are starting to see success. There is room for 
improvement and you have identified, in particular, the 
challenge with the geography of this region.
    Mr. Salmon. Dr. Richards, did you want to comment also?
    Ms. Richards. Yes, thank you. Thank you for the question 
which is absolutely essential to what we are trying to do, 
particularly on stopping the flow of foreign fighters, but also 
in preventing safe havens that could protect all sorts of 
terrorists.
    We have sponsored a number of regional training 
opportunities so that countries can come together and talk 
about their problems and how to work together. But I would like 
to highlight that we recently sent our special advisor for 
foreign terrorist fighters, Ambassador Jake Wallace, out to 
Indonesia and Malaysia to talk about the full range of 
improvements they might make to their own homeland security 
system, how we can work together, how we can implement things 
like this Interpol initiative. So we are working very closely 
with the governments, talking to them frequently to identify 
their gaps. This is in coordination with the DHS, Department of 
Homeland Security, here, and with the NCTC which, of course, 
looks at the threat information and can focus for where the 
threat is.
    Mr. Salmon. That kind of segues to my next question because 
the United States and Australia have contributed extensive 
assistance to the development of Indonesia's elite counter 
terrorism unit, Detachment 88. How do you assess the track 
record of Detachment 88? And how can the United States further 
assist this unit? Is it successful enough that we could try to 
duplicate it in other countries? And do you believe that 
Indonesia's counterterrorism efforts and particularly 
Detachment 88 have demonstrated sufficient regard for human 
rights and legal processes. Mr. Murphy?
    Mr. Murphy. Thank you, Mr. Chairman. The success of 
Detachment 88 is quite symbolic of the approach that Indonesia 
is taking to tackle the terrorism challenge. This is a civilian 
led, rule of law based approach. And this reflects a real 
transition in the way countries are tackling the challenge. And 
with our help and contributions, Detachment 88 is a 
specialized, effective, police entity to tackle 
counterterrorism and it has produced many arrests, successful 
prosecutions; I think even more importantly the thwarting of 
attacks and threats before they materialize. And so it is 
something for others to take note of and we are very pleased 
with the success and want to encourage more like it.
    Mr. Salmon. So what can we do to maybe--maybe not exact 
duplicates, but similar approaches in other countries or would 
that be productive?
    Mr. Murphy. Well, to some degree, I think, Mr. Chairman, we 
are seeing similar approaches in other countries, particularly 
this model of emphasizing a rule of law based approach to 
counterterrorism, empowering civilian-led agencies to have the 
lead to coordinate across agencies, much like we do here in the 
United States. This is proving to be more effective. And 
Detachment 88, as I noted before having succeeded with numerous 
arrests, and in the case of the January attack that several of 
you cited, it could have been much worse. Deeply tragic, the 
loss of life, in particular, the four civilians, but I think 
many analysts see that it could have been much worse. This is 
the success of this rule of law based approach that Indonesia 
has been taking.
    Mr. Salmon. Well, my time has expired. So I will turn to 
Representative Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. You know, we have 
heard numbers, estimated numbers, in particular, coming from 
Europe with regards to the numbers of foreign fighters who 
leave that region and go to places like Syria and Iraq to 
fight. Do you have similar estimates for Southeast Asia along 
those same lines?
    Ms. Richards. We have a few numbers in there, included in 
the written testimony. Essentially, we have seen about 300 
foreign fighters going to Indonesia. They bring their families 
so the actual number is higher, and a smaller number from 
Malaysia, about 75. This is, of course, Indonesia is an 
enormous country, so per capita it is a relatively small number 
and much smaller than some European countries and particularly 
some North African countries. But one person or one small group 
of people can cause a lot of damage. So although the numbers 
are relatively small, we take them very seriously.
    Ms. Gabbard. Dr. Richards, you talked about radicalization 
in prisons which I think is an important area that hasn't often 
been addressed when looking at this issue. And I wonder if you 
can speak in a little bit more detail about the pilot projects 
that you are looking at, if you have seen places where you have 
gotten best practices or lessons learned and I am interested to 
hear a little bit more about what you are looking at and what 
these different countries are looking at.
    Ms. Richards. Yes, I would be happy to. I will mention that 
I was in Australia last--about 6 months ago, I think, for a 
working group meeting of the Global Counterterrorism Forum 
which was mentioned here which Australia leads this working 
group, together with Indonesia, specifically on the question of 
deradicalization and reintegration. So we had representatives 
from a number of Southeast Asian countries. I happened to sit 
at a table with a Filipino prison official, but also from 
African countries and some other countries which face this 
threat. It is very dependent on the capacity of these 
countries, frankly.
    In many of these countries, the prisons are overcrowded. 
There have traditionally not been ways of separating out 
prisoners. They don't have the capacity to provide real 
training, job employment prospects. They don't traditionally 
follow people after their release from prison and reintegrate 
into the society.
    So the countries are working together and we are working 
very closely with them. We have identified best practices that 
would work within their societies, given their means. And this 
is has not being proposed as an action plan. We are doing 
trainings, the GCTF is doing trainings.
    In addition, the United States sponsors a Department of 
Justice specialist, prison specialist in Indonesia, who has 
been working intensively with the Indonesian prison officials, 
as I said, starting with a fairly small population, but to 
provide a model for how we can--they can identify these 
prisoners and gradually, ideally deradicalize them, but at 
least keep them from radicalizing within the prison community.
    Ms. Gabbard. You mentioned some of the lack of resources in 
tracking or following people when they leave. With the 
relatively small number of foreign fighters who leave and then 
come back to whether it is Indonesia or Malaysia, are they--do 
they have the resources and are they tracking and identifying 
who these individuals are?
    Ms. Richards. In the case of foreign fighters, I am not 
sure there is a problem. In the case of Malaysia, for example, 
they have arrested all the foreign fighters they have 
identified who came back. It is eight of them. And they are all 
in prison.
    We are more concerned about some of the terrorists who have 
been in prison for a while, particularly the Bali bomber 
terrorists who are due to be released. In fact, their on-going 
release is now. So we, as the United States, and also the 
Indonesian Government, the Australian Government, throughout 
the region, they are very concerned about what these people 
could do when they are on the outside.
    Ms. Gabbard. You mentioned the 300 though from Indonesia, 
for example.
    Ms. Richards. Yes, the 300 went. Sixty have been stopped. 
They have been stopped through this kind of information 
sharing. Obviously, these are rough numbers and there may be 
some out there that we are not aware of. But the problem is 
more a long-term problem that we see as with many of these 
issues.
    Ms. Gabbard. Thank you. And Mr. Murphy, I think you spoke 
about the online messaging issue and a counter online messaging 
initiative that is being implemented. Can you speak about this 
and how they have seen where it has worked and what they are 
modeling this after?
    Mr. Murphy. Yes, thank you, Congresswoman. Online messaging 
is one of those tools that ISIL has used to some effect in 
Southeast Asia with its messages of falsehoods, of 
mischaracterizing Islam and supposed threats against Islam.
    Ms. Gabbard. This is something that we see here, as well.
    Mr. Murphy. That is correct. It is a global challenge. So 
Southeast Asia is not immune from it. The countries that we 
partner with in this region understand that very, very well. 
Malaysia, with its stepped-up cooperation with the 
international community initiated on its own a messaging center 
that will have regional reach. They plan to stand that up in 
the coming months in Kuala Lumpur and we look forward to being 
there, being there and supporting this process. It takes a lot 
of work to counter the messaging and it has to be from our 
perspective a local effort. That can't be done from the United 
States or elsewhere. We have good partners, not just in 
government, but in civil society. I will give you an example, 
Congresswoman. In Indonesia, two of the largest Islamic civil 
society organizations in the world are located there and are 
some of the most vocal voices when it comes to condemning ISIL 
and the message of hatred. Those are the kind of partners we 
are looking at empowering, working with to help with this 
counter messaging kind of effort.
    Ms. Gabbard. Yes, Dr. Richards.
    Ms. Richards. Congresswoman, I just want to take a very 
short moment to address your comment on Bangladesh because we 
completely agree with you. The State Department will be sending 
a high-level team out to Bangladesh next month to consult with 
them on what their problem is and how we can help them and we 
are doing quite a lot in Bangladesh. We can discuss separately.
    Ms. Gabbard. Thank you. I appreciate you mentioning that. 
Thanks.
    Mr. Salmon. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
appreciate you taking the time and effort to make sure that 
this hearing happened today on a very significant issue. I 
remember that back in 2001, the first real attack that I heard 
of after 9/11 happened in Bali where--and I happen to represent 
Surf City USA, Huntington Beach, and we took that very 
seriously, where just a group of surfers who were frankly 
enjoying themselves in the evening at one of their local bars, 
it was blown up and these are people who were no threat to 
anyone which indicated that we were, the world, when you 
combine that with what happened on 9/11, that the world was 
into a new challenge that we have faced and the good people of 
the world.
    I will have to say that there is some skepticism on the 
part of some of us as to the way the administration is handling 
this unique challenge that we face. And I will say there are 
hints of that today, although let me just say that I have no 
doubt that each one of you are doing the very best job you can 
and I am grateful for it. I have three children who I want to 
live in a safer world. But I think that quite often this 
administration is mistaking the fight against radical Islamic 
terrorists, by the way a phrase which I have to note doesn't 
seem to be able to be spoken not only by our President, but 
even by the witnesses who come to Congress. I never heard that 
radical Islamic terrorism or just even Islamic terrorism. 
Instead, I hear about violent extremists as if we are not 
talking about Islamic terrorists at all. We are talking about 
extremists, whoever they are. No, what has happened is radical 
Islamic terrorists have declared war on the United States and 
on Western civilization, meaning our allies in this world. And 
I am sorry that you can't use those words because it takes away 
from the confidence that we could have in your efforts.
    And in the fact that that seems to be something that 
indicates something, that it would be in my mind that you are 
taking a law-enforcement approach versus a counterterrorism 
approach. And law enforcement is a great deal different than 
counterterrorism. Law enforcement is that you basically will 
try to find out who has committed a crime and punish them for 
it and maybe to go out and to find out who is in a gang and try 
to get a message as you have described, and messages from 
people in Indonesia who are speaking out, Muslims are speaking 
out against this terrorism. But counterterrorism is you are 
dealing with monsters who kill innocent women and children, 
target them in order to terrorize a population. It is different 
than law enforcement. Totally different--not totally, but major 
differences in those approaches.
    Let me ask you specifically, and again, I am afraid this 
administration and what I have heard today does not sway me 
from my apprehension that there is a problem there in the 
definition of what we are trying to do and the definition of 
who we are trying to get to or who we are trying to eliminate. 
Because we are not trying to eliminate violent extremists. That 
is not what is attacking our families and people throughout the 
world. It is radical Islamic terrorists.
    Let me ask you about the Philippines, which I have spent a 
great deal of time in over the years. I understand there was 
recently an Abu Sayyaf terrorist attack in the Philippines. Is 
that correct? Can you give me some details on that?
    Mr. Murphy. Thank you, Congressman. Indeed, a subunit, a 
splinter group of the ASG was involved in a conflict with 
Filipino security forces over the weekend. We understand this 
cost the lives of several dozen Filipino security force members 
and we express our deepest condolences. This kind of violence, 
kind of conflict, costs real in terms of human lives and local 
security.
    However, it does not diminish the fact that the Philippines 
has had success in recent years in degrading the capabilities 
of this particular group. Small numbers are left. They are a 
threat. The Philippines is taking it very seriously, but 
achieving success.
    Mr. Rohrabacher. Yes, we had a special forces team there 
for a number of years and they did a great job. And let me also 
note the State Department is focused on that part of the 
Philippines and has done a good job as well. And we should 
remember that Ramzi Yousef, after planning the first terrorist 
attack on the World Trade Center, where he ended up. He ended 
up in the Philippines and he was there--I am still trying to 
find evidence that was in some way associated with the Abu 
Sayyaf terrorist network and other people who are affiliated 
with that.
    This is a major threat in the world today. This region is 
not immune. It could get a lot worse. I have reports that the 
situation in Mindanao is a lot worse than those of us who have 
been watching and believed it to be. So I look forward to 
working with you, as well as with our chairman, to make sure we 
all do our best to defeat the radical Islamic terrorists who 
want to murder us. Thank you very much, Mr. Chairman.
    Mr. Salmon. If you don't mind, I would like to ask one more 
question. I mentioned that when I was over there I visited one 
of the madrasas. I think when a lot of my constituents hear the 
term madrasa, they conjure up something in their mind because 
some of these madrasas in the Middle East have been used for 
recruiting purposes and indoctrinating purposes. But I learned 
while I was there that the term madrasa just means boarding 
school. That is the term that they use and it is a very typical 
way of educating the children.
    You mentioned, Mr. Murphy, that you are very concerned 
about the radicalization, the recruiting that happens in 
prison. Are you concerned about that possibly happening in some 
of the schools? And how well do you think these governments are 
doing at dealing with those threats as well?
    Mr. Murphy. Mr. Chairman, I will again thank you for 
leading a delegation out to Indonesia and would encourage all 
members of the committee to visit Southeast Asia. Our embassies 
and consulates will take good care of you and you can see first 
hand our engagement across the board in Southeast Asia which is 
really----
    Mr. Salmon. If I could just say, the folks in our embassy 
there were second to none. They were amazing, really, really 
talented, wonderful individuals and I couldn't be prouder. But 
every time I go across the world and I visit an embassy, I 
always feel the same. I think that they are the brightest and 
the best that we have to offer in our society and I really 
appreciate the great work that they do.
    Mr. Murphy. Thank you, Mr. Chairman. I will carry that 
message directly to Jakarta in a week and a half when I will be 
with our Ambassador Blake and his team. Thank you very much for 
that.
    You know, you have identified one of the issues that we 
watch very closely and that is what are the vulnerabilities to 
extremism? And what are the drivers? And there are a whole host 
and my colleagues can speak to that as well in terms of social 
inequities, economic opportunities. For some, it might be 
religious related. I think the important thing to look at from 
the U.S. perspective is our whole of government broad approach 
to Southeast Asia, our rebalance to Asia under this 
administration, but our engagement in so many different areas. 
Youth is one of them, youth and education. We have a young, 
Southeast Asia leadership initiative, YSEALI, that has been 
enormously successful in drawing over 50,000 Southeast Asian 
youth to partner with our missions, with our President, to 
engage in a whole host of opportunities, innovation, 
technology, education exchanges. These are the future leaders 
of the region and the youth hold a lot of promise.
    I don't think we see any particular vulnerabilities in 
religious faith-based schools and education institutions, but 
we do see a very broad need for local governments, local 
entities to message very carefully to counter the false 
messaging that is coming from ISIL. And schools and youth would 
be no exception.
    Mr. Salmon. Thank you. Representative Gabbard, did you have 
another question? No. Well, thank you very, very much. This has 
been very, very helpful. We appreciate you coming and sharing 
what the administration is doing in Southeast Asia about global 
terrorism. So thank you very much. We appreciate it and without 
further ado, this meeting is adjourned.
    [Whereupon, at 3:08 p.m., the subcommittee was adjourned.]

 
                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
